No. 20-772
IN THE

Supreme Court of the United States
WATERFRONT COMMISSION OF NEW YORK HARBOR,
Petitioner,
v.
GOVERNOR OF NEW JERSEY, ET AL.,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, Seth P. Waxman, a member of the
bar of this Court, certify that the accompanying Reply Brief for Petitioner contains
2,986 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
Executed on March 16, 2021.

SETH P. WAXMAN
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
seth.waxman@wilmerhale.com

